                                CLOSEOUT FOR M97100035

       This case came to OIG on October 23, 1997, when-                             NSF's
Division Director for                                       informed us that he had received a
complaint
 - - . from   s M                                               possible abuse of human
subjects who had participated in research studies. The subject of the complaint was Dr.
         a researcher at thehet!-                                      university).

        The complainant alleged that the subject did not help her obtain medical records and
information that were relevant to the complainant and that related to the complainant's
participation in the subject's research. The complainant also alleged that other university
officials were rude to her when she tried to obtain information from them.

        The complainant presented no evidence or allegation that the alleged abuse of a
 research participant involved research funded by NSF. According to NSF records, NSF has
never funded the subject's research. OIG has jurisdiction only over misconduct that occurs "in
proposing, carrying out or reporting results from activities funded by NSF" (45 C.F.R.
 $689.1(a)(l)) and therefore lacks jurisdiction over the allegations in this case. Lacking
jurisdiction, we had no reason to decide whether the alleged facts were accurate or, if accurate,
would constitute evidence of misconduct in science.

       This inquiry is closed and no further action will be taken on this case.

cc: AIG-0, IG




                                      page 1 of 1
